Daniel L. Geyser
Chair, U.S. Supreme Court and
Federal Appellate Practice

Alexander Dubose & Jefferson

Walnut Glen Tower
8144 Walnut Hill Lane, Ste. 1000
Dallas, TX 75231
T: 214.396.0441
dgeyser@adjtlaw.com

VIA ELECTRONIC FILING
June 4, 2021
The Honorable Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Richard Sowinski v. California Air Resources Board, No. 20-1339

Dear Mr. Harris:
We write on behalf of petitioner and respondent to jointly request that the petition
for a writ of certiorari in this case be dismissed pursuant to this Court’s Rule 46.1. Each
side has agreed to bear its own fees and costs.
We appreciate your time and assistance.
Respectfully submitted.
/s/ Daniel L. Geyser
Daniel L. Geyser
Counsel of Record for Petitioner
/s/ Samuel T. Harbourt
Samuel T. Harbourt
Counsel of Record for Respondent

